        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Examination Report
City of Los Angeles – Energy
Efficiency and Conservation Block
Grant Program Funds Provided by
the American Recovery and
Reinvestment Act of 2009




OAS-RA-13-12                        February 2013
                                 Department of Energy
                                    Washington, DC 20585
                                       February 19, 2013


MEMORANDUM FOR THE ASSISTANT SECRETARY FOR ENERGY EFFICIENCY AND
               RENEWABLE ENERGY




FROM:                    Rickey R. Hass
                         Deputy Inspector General
                            for Audits and Inspections
                         Office of Inspector General

SUBJECT:                 INFORMATION: Examination Report on "City of Los Angeles 
                         Energy Efficiency and Conservation Block Grant Program Funds
                         Provided by the American Recovery and Reinvestment Act of 2009"

INTRODUCTION AND OBJECTIVE

The attached report presents the results of an examination of the City of Los Angeles' (City)
implementation of the American Recovery and Reinvestment Act of 2009 (Recovery Act)
Energy Efficiency and Conservation Block Grant (EECBG) Program. The Office of Inspector
General (OIG) contracted with an independent certified public accounting firm, Lopez and
Company, LLP, to express an opinion on the City's compliance with Federal laws, regulations
and program guidelines applicable to the EECBG Program.

The Recovery Act was enacted to promote economic prosperity through job creation and
encourage investment in the Nation's energy future. As part of the Recovery Act, the EECBG
Program received $3.2 billion to develop, promote, implement and manage energy efficiency and
conservation projects and programs designed to reduce fossil fuel emissions, reduce total energy
use of the eligible entities, and improve energy efficiency in the transportation, building and
other appropriate sectors. In July 2009, the Department of Energy (Department) awarded the
City a 3-year formula grant of $37 million. The City allocated EECBG funds to 10 of its
departments, including the Department of Water and Power, General Services Department
(GSD), and the Los Angeles Housing Department. The City assigned responsibility for
managing its grant to the Community Development Department. The City had 16 activities
under the grant, including a Municipal Buildings Retrofit Program, development of several
EECBG Program related strategies and Outreach and Education Programs. The City requested
and received an extension of its grant to September 2013.

OBSERVATIONS AND CONCLUSIONS

Lopez and Company, LLP, expressed the opinion that except for the significant deficiency in
internal controls described in its report, the City complied in all material respects with the
requirements and guidelines relative to the EECBG Program for the period of July 27, 2009
through June 30, 2011. However, the examination found that the City had not ensured GSD
                                                 2


contractors paid their employees prevailing wages in accordance with the Davis-Bacon Act.
Additionally, GSD had not documented that 15 contractor employees were appropriately
classified as apprentices.

The report includes advisory comments that communicate control deficiencies that were not
significant enough to adversely affect the City's ability to record, process, summarize and report
data reliably. These advisory comments were offered to City management as an opportunity for
improvement. Specifically, the City:

        Did not properly account for or document EECBG equipment purchases in accordance
         with Federal regulations. Specifically, GSD did not include in its official fixed asset
         system required information regarding the source and percentage of Federal
         participation of funds for each fixed asset.

        Had not properly calculated total labor hours used to compute jobs created and retained.

The report makes recommendations to the City to improve the administration of its EECBG
Program. The City provided comments that expressed general disagreement with some findings
and recommendations. The City responded it had already, in most cases, taken action to address
the issues identified. In response to the City's comments, Lopez and Company, LLP, removed
one of its findings related to cash advances because it was a single occurrence and the City had
implemented mitigating controls. The Department needs to determine whether the corrective
actions taken for the remaining findings were adequate and ensure the recommendations outlined
in the report were implemented.

RECOMMENDATION

We recommend that the Assistant Secretary for Energy Efficiency and Renewable Energy
require the City to improve administration of its EECBG Program by ensuring the City
implements the recommendations outlined in the report.

DEPARTMENT COMMENTS AND AUDITOR RESPONSE

The Department concurred with the recommendation and has been working with the City to
ensure that all corrective actions are implemented. It stated it will continue to support the City
through diligent monitoring by the cognizant Project Officer to ensure the City properly
documents and enforces the Davis-Bacon Act and complies with other appropriate regulations.
The Department's comments are included in their entirety in Attachment 2.

The Department's comments are responsive to our recommendation.
                                               3


EXAMINATION-LEVEL ATTESTATION

Lopez and Company, LLP, conducted its examination in accordance with attestation standards
established by the American Institute of Certified Public Accountants as well as those additional
standards contained in Government Auditing Standards, issued by the Comptroller General of the
United States. The examination-level procedures included gaining an understanding of the City's
policies and procedures and reviewing applicable EECBG Program documentation. The
procedures also included an analysis of activity progress, reimbursement drawdown requests and
compliance with required reporting. Finally, an analysis of associated expenditure data was
conducted to test the allowability of payments.

The OIG monitored the progress of the examination and reviewed the report and related
documentation. Our review disclosed no instances in which Lopez and Company, LLP, did not
comply, in all material respects, with the attestation requirements. Lopez and Company, LLP, is
responsible for the attached report dated November 7, 2012, and the conclusions expressed in the
report.

Attachments

cc: Deputy Secretary
    Acting Under Secretary of Energy
    Chief of Staff
                                                             Attachment 1




          EXAMINATION REPORT ON COMPLIANCE

                                OF

Recovery Act Energy Efficiency and Conservation Block Grant Program

                        City of Los Angeles

                               ____

                        PERFORMED FOR

                U.S. DEPARTMENT OF ENERGY
               OFFICE OF INSPECTOR GENERAL



                           Prepared by

                     Lopez and Company, LLP

                  Report Date: November 7, 2012




              CONTRACT NUMBER: DE-IG0000017

               WORK ORDER NUMBER: 2011-05
                                                                                                     Attachment 1 (continued)




                                                       Table of Contents


INDEPENDENT ACCOUNTANT'S REPORT ......................................................................... 1 

Section I Description of the City of Los Angeles' Energy Efficiency and Conservation Block
          Grant Program ................................................................................................................ 2 

Section II Classification of Findings.............................................................................................. 3 

Section III Summary of Findings.................................................................................................... 4 

Section IV Schedule of Findings .................................................................................................... 5

Section V Management Response ................................................................................................ 12
         Attachment 1 (continued)




Page 1      Lopez and Company, LLP
                                                                       Attachment 1 (continued)


    Section I Description of the City of Los Angeles' Energy Efficiency and
                     Conservation Block Grant Program

Under the American Recovery and Reinvestment Act of 2009 (Recovery Act), the Department of
Energy's (Department) Energy Efficiency and Conservation Block Grant (EECBG) Program
received $3.2 billion to improve energy efficiency and reduce energy use and fossil fuel
emissions. The Department allocated about $2.7 billion of the funds using a population-driven
formula to over 2,000 entities including states and territories; cities and counties; and, Indian
tribes. The remainder of the funding, nearly $500 million, was awarded for competitive grant
awards and technical assistance activities.
In July 2009, the Department awarded the City of Los Angeles (City) a 3-year formula grant of
$37 million. The City has 16 activities under the grant, including a Green Workforce Program,
Municipal Buildings Retrofit Program, Neighborhood Stabilization Program, Energy Efficiency
Retrofits for Non-Profits, Enhanced Utility Incentives, Port Technology Advancement Program,
development of a Regional Climate Action Plan, Outreach and Education Program, development
of several EECBG related strategies, and implementation of various financing programs.
The City initially assigned responsibility for managing the EECBG award to the Environmental
Affairs Department and then in June of 2010 transferred the responsibility to the Community
Development Department (CDD). The City allocated EECBG funds to ten departments within
the City, including its Community Redevelopment Agency, Department of Water and Power
(LADWP), General Services Department (GSD), Los Angeles Harbor, Los Angeles Housing
Department (LAHD), Mayor's Office, Environmental Affairs Office, Public Works Street
Lighting, Office of the City Administrator, and Community Development Department. Our
examination was limited to the CDD, GSD, LADWP, and LAHD. These departments
represented over 70% of the City's EECBG funding. The Agency had requested and received an
extension of its grant to September 2013.




                                                Page 2                     Lopez and Company, LLP
                                                                           Attachment 1 (continued)


                           Section II Classification of Findings


Material Weakness
For purposes of this engagement, a material weakness is a significant deficiency or combination
of significant deficiencies that results in more than a remote likelihood that a material
misstatement of the subject matter will not be prevented or detected. There were no material
weaknesses noted in this report.

Significant Deficiency
For purposes of this engagement, a significant deficiency is a deficiency in internal control, or
combination of deficiencies, that adversely affects the City's ability to initiate, authorize, record,
process, or report data reliably in accordance with the applicable criteria or framework, such that
there is more than a remote likelihood that a misstatement of the subject matter that is more than
inconsequential will not be prevented or detected.

Advisory Comments
For purposes of this engagement, an advisory comment represents a control deficiency that is not
significant enough to adversely affect the City's ability to record, process, summarize, and report
data reliably.
Advisory comments presented, if any, represent matters that came to our attention during the
course of the review, and are offered to the City's management as an opportunity for
improvement. The advisory comments are provided along with recommendations and discussion
of the significance of the comments.




                                                   Page 3                      Lopez and Company, LLP
                                                                  Attachment 1 (continued)


                           Section III Summary of Findings

Area/Finding


      Significant Deficiencies
Davis-Bacon Act
      IV.1     City Contractor Employees Not Paid in Accordance with Davis-Bacon Wages


      Advisory Comments
Financial Management and Reporting
      IV.2     Fixed Asset Ledger Lacks Required Information
      IV.3     Contractor Hours Not Properly Reported




                                              Page 4                 Lopez and Company, LLP
                                                                         Attachment 1 (continued)


                             Section IV Schedule of Findings
DAVIS-BACON ACT

IV.1 City Contractor Employees Not Paid in Accordance with Davis-Bacon Wages
(Significant Deficiency)

Condition

We found instances in which City contractors did not pay their employees prevailing wages in
accordance with the Davis-Bacon Act, as required. Specifically, we sampled 66 contractor
employees at the City's General Services Department (GSD) and found that 9 were paid less than
required. Underpayments for a 1-week period totaled $1,400 and ranged from as little as 50
cents to about $550.

In addition, we found that GSD had not appropriately documented the classification of contractor
employees as apprentices. Specifically, in our sample of 66 contractor employees, the files for
the 15 identified as apprentices did not contain documentation verifying that they were properly
classified as apprentices and could therefore be paid apprentice wage rates. Apprentice wages
are lower than those paid to journeyman employees. While appropriate documentation was not
contained in the file, we did note that the 15 apprentices were paid proper wages.

Federal regulations require individual registration of apprentices in a bona fide program that can
include a State Apprenticeship Agency. Per the terms and conditions of the grant agreement
between the Department and the City, if the contractors fail to properly register apprentices in an
apprenticeship program, the employee must be paid at the higher journeyman rate. While GSD
had procedures requiring contractors to submit a letter from the State of California Division of
Apprenticeship Standards confirming each individual's apprentice status, these documents were
not included in the files at the time of our examination. As a result of our examination, GSD
obtained the state letters from the contractors for all 15 apprentices.

Cause

While the City's Community Development Department (CDD), the department responsible for
overseeing GSD's compliance with the Davis-Bacon Act, had provided training, issued guidance,
and conducted frequent communication with the City's Departments receiving funding, it did not
perform an adequate review of certified payrolls to verify appropriate wages were paid or ensure
adequate supporting documentation for apprentices was maintained.

Effect

The lack of an adequate review of certified payrolls increased the risk that additional contractor
employees may be underpaid.




                                                 Page 5                      Lopez and Company, LLP
                                                                         Attachment 1 (continued)


                        Section IV Schedule of Findings (Cont.)
Recommendations
We recommend the City:
1.1    Ensure CDD performs reviews of certified payrolls for compliance with Davis-Bacon Act
       prevailing wage requirements;
1.2    Ensure contractors resolve underpayments and submit revised certified payrolls to GSD;
1.3    Perform a review of all GSD certified payrolls to ensure contractor employees have been
       paid the appropriate Davis-Bacon Act wages and resolve any instances of underpaid
       wages; and,
1.4    Ensure all contractor employees classified as apprentices have been properly registered
       with the State of California and appropriate documentation is included in the files to
       support the apprenticeship status.
Management Comments
Management did not concur with our findings and recommendations. Management stated that
the original title of the finding was misleading because it erroneously suggested that the city
made inaccurate payments to its contractors rather than indicating that contractors may not have
paid their employees in accordance with the Davis-Bacon Act. Management also asserted that it
was inaccurate to state that GSD could not explain how the wage variances went undetected,
because it had begun to investigate and resolve several of the cited cases of wage discrepancies
before the examination. Further, management stated that the apprenticeship documentation issue
should neither be included in the finding nor considered a significant deficiency. Management
asserted that GSD had procedures for comparing apprenticeship information certified by their
contractors with letters from the State of California confirming individuals' apprenticeship status.
Lastly, management stated that the documentation noted above was not a Federal requirement
and all apprentices had been paid the appropriate wages.
Auditor's Response
We revised the title of the finding to clarify that the issue related to payments to contractor
employees. Management provided no evidence during the examination or as part of its response
that GSD officials had known of the payment discrepancies we noted and had begun to
investigate and resolve them prior to our examination. Additionally, despite GSD's procedures
to compare certified payrolls to documentation confirming contractor employees' apprenticeship
status, we found that GSD officials could not demonstrate the individuals were properly
registered until they obtained the State of California letters at our request.




                                                 Page 6                      Lopez and Company, LLP
                                                                        Attachment 1 (continued)


                        Section IV Schedule of Findings (Cont.)
While federal regulations do not explicitly require specific documentation, they do require
grantees to ensure proper registration of individuals in apprentice programs. Further, we revised
the report to note that, despite the documentation issues, the employees classified as apprentices
were paid appropriate wages.




                                                 Page 7                     Lopez and Company, LLP
                                                                         Attachment 1 (continued)


                         Section IV Schedule of Findings (Cont.)
FINANCIAL MANAGEMENT AND REPORTING


IV.2     Fixed Asset Ledger Lacks Required Information (Advisory Comment)

Condition

We found the City had not properly documented fixed asset purchases in accordance with
Federal regulations and the Recovery Act. Specifically, we found that GSD did not include in its
official fixed asset system required information regarding the source and percentage of Federal
participation of funds for each fixed asset. Federal regulations and the City's grant agreement
require maintaining accurate equipment records including information showing the source and
percentage of Federal funding. This information is necessary should the City decide to sell or
otherwise dispose of the equipment. Federal regulations require a computation of the remaining
current fair market value or sale price and a determination if any monies must be refunded to a
Federal agency based on the percentage of funding as reflected in the City's fixed asset ledger.

Cause

The City was unaware of the Federal requirement to document in its records the funding source
and the percentage of Federal participation for the cost of equipment.

Effect

The lack of required equipment cost information in the City's fixed asset records, including
funding source and percentage of Federal participation, could result in the failure to properly
compute any necessary refund of Federal funds in the event that fixed assets are either sold or
disposed of. However, as a result of our examination, the City reported that it had modified its
fixed asset system and revised its policies and procedures to capture all required information,
including the funding source and percentage of participation.

Recommendation

We recommend the City:

2.1      Monitor compliance with its revised policies and procedures to ensure the fixed asset
         ledger contains all Federally required information.




                                                 Page 8                     Lopez and Company, LLP
                                                                       Attachment 1 (continued)


                        Section IV Schedule of Findings (Cont.)

Management Response

Management did not concur with our finding and recommendation. Management asserted that
while the fixed asset system cited in the report only captured seven of the nine fields of
information required by Federal regulations, there were other reports and documents with fixed
asset data. Management acknowledged that it updated its fixed asset system as a result of this
examination to centralize the information. In addition, management stated its fixed asset salvage
procedures would have acted as a control to limit any financial impact upon disposal.

Auditor's Response

During our examination, the GSD indicated the fixed asset system was the official record and did
not identify information residing in other locations. While salvage procedures may act as a
control over the disposal of assets, the need to determine the source and percentage of funding
are critical and may not be easily determined if not recorded properly. The modified system
appears to alleviate that concern.




                                                Page 9                     Lopez and Company, LLP
                                                                         Attachment 1 (continued)


                         Section IV Schedule of Findings (Cont.)

IV.3     Contractor Hours Not Properly Reported (Advisory Comment)

Condition

The City had not properly calculated the total labor hours it reported for the quarter ending
June 2011. Total hours reported for the quarter were about 27,700, whereas actual hours were
29,500, an understatement of approximately 1,800 hours or 3.5 full time equivalents. The seven
departments that reported hours created/retained showed differences between what had been
reported and actual hours. The Recovery Act requires quarterly reporting of jobs created and
retained. EECBG Program Notice 10-07C, allows for adjustment of estimates. Per the Notice,
jobs created/retained reports are due on the 10th day after the quarter, and from the 11th thru the
21st day, prime recipients can correct significant reporting errors or omissions. From the 33rd
thru 75th day, corrections can be made during what is known as a continuous quality assurance
(QA) period.

Cause

The City reported estimated rather than actual hours worked. CDD, responsible for
accumulating city-wide hours and reporting jobs created/retained, had an information cut-off
date of one to two weeks prior to the end of the quarter. The agency was not aware of the
guidance that allowed adjustments after the reporting period.
In addition to using estimates, two of the departments in our review did not fully understand
reporting requirements. The Los Angeles Department of Water and Power (LADWP) Outreach,
Research, and Education Grant Program had not properly overseen its non-profit organizations,
some of whom were unfamiliar with requirements to report in a timely manner. The GSD
reported hours only on a project completion basis, rather than on an in-process basis for its
Municipal Building Retrofit Program.
Effect

Inaccurate reporting of jobs created and retained may result in the Department's use of faulty
data in its compilation of Recovery Act job statistics.

Recommendations

We recommend the City:
3.1      Ensure LADWP instructs non-profit organizations that the quarterly reporting of hours
         worked under the Outreach Grant Program are to be reported in an accurate, complete
         and timely manner;
3.2      Ensure GSD's reported hours include in-process projects; and,
3.3      Establish and implement policies and procedures to ensure follow-up review and
         reporting of corrected prior period data to assure accurate Recovery Act Reporting of
         labor hours worked and jobs reported.

                                                Page 10                      Lopez and Company, LLP
                                                                      Attachment 1 (continued)


                       Section IV Schedule of Findings (Cont.)

Management Response

Management agreed with the finding and recommendations. Management pointed out that the
vast majority of information it had reported to the Office of Management and Budget was
complete and correct. However, the City took steps to ensure follow-up review and reporting of
data by revising its reporting procedures, and submitting any updated report information during
the QA period. The City had also worked with LAHD and GSD to ensure they were reporting
accurate and complete data.

Auditor's Response

Management's comments were responsive to our recommendations.




                                              Page 11                     Lopez and Company, LLP
                            Attachment 1 (continued)

Section V Management Response




          Page 12               Lopez and Company, LLP
                                Attachment 1 (continued)

Section V Management Response (Cont.)




              Page 13              Lopez and Company, LLP
                      Attachment 2



DEPARTMENT COMMENTS




       Page 14
          Attachment 2 (continued)




Page 15
                                                                 IG Report No. OAS-RA-13-12



                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report that would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                  U.S. Department of Energy Office of Inspector General Home Page
                                         http://energy.gov/ig

      Your comments would be appreciated and can be provided on the Customer Response Form.
